IN THE

Supreme Court of the United States
JAMES ERIK GODIKSEN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent,
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to the provisions of Rule 39, the petitioner, JAMES ERIK GODIKSEN, moves to
file the attached petition for certiorari without prepayment of costs and to proceed in forma
pauperis. The petitioner was represented in the United States District Court for the District of
Connecticut and in the United States Court of Appeals for the Second Circuit by counsel
appointed pursuant to the Criminal Justice Act, 18 U.S.C. § 3006A. His financial condition has
not changed materially.

IN THE

Supreme Court of the United States
JAMES ERIK GODIKSEN,
Petitioner
v.
UNITED STATES OF AMERICA,
Respondent
____________________________
AFFIDAVIT OF SERVICE
I, Tracy Hayes, do swear or declare that on this date, June 23, 2021, as required by
Supreme Court Rules 12.3 and 29, I have served the enclosed on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the Motion for Leave to Proceed In Forma Pauperis, Petition
for Writ of Certiorari, and Affidavit of Service in the United States mail properly addressed to
each of them and with first-class postage prepaid.

The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N. W.
Washington, DC 20530-0001
Rahul Kale
Assistant United States Attorney
United States Attorney’s Office
1000 Lafayette Boulevard
Bridgeport, CT 06604

I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 23, 2021

By ________________________
Tracy Hayes
Assistant Federal Defender
265 Church Street, Suite 702
New Haven, CT 06510
Phone: 203-498-4200
Fax: 203-498-4207
Email: Tracy_Hayes @fd.org

